GR-90-98-012
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF TACOMA POLICE DEPARTMENT
WASHINGTON
GR-90-98-012
MARCH 1998
 
 EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of five
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Tacoma Police Department (TPD), Washington. The
TPD received a grant of $375,000 to hire 5 sworn officers under Phase I, $300,000 to hire
4 sworn officers under the Accelerated Hiring, Education and Deployment Program (AHEAD),
$1,575,000 to hire 21 sworn officers under the Universal Hiring Program (UHP), $104,043 to
redeploy 6.3 sworn officer full-time equivalents (FTEs) into community policing under the
Making Officer Redeployment Effective program for 1995 (MORE 95) and $77,744 to redeploy
3.1 sworn officer FTEs into community policing for 1997 under MORE 96. The purpose of the
additional officers under each of the grant programs is to enhance community policing
efforts. 
In brief, our audit determined that the TPD violated the following grant conditions:


- Charged unallowable costs totaling $4,833 to the Phase I grant and $18,230 to the
    AHEAD/UHP grant. These unallowable costs consisted of the duplicate billing of salaries
    and benefits. 
- Charged unallowable costs totaling $202,074 to the AHEAD/UHP grant. These unallowable
    costs consisted of preaward salaries and benefits. 
- Charged $3,665 of unsupported costs to the Phase I grant and $1,502 of unsupported
    costs to the AHEAD/UHP grant. These unsupported costs were the differences between the
    financial records and the requests for reimbursements that the TPD could not explain.
- The Tacoma City Council has failed to provide the matching funds for two of the
    positions under the UHP portion of the AHEAD/UHP grant. TPD has not informed COPS of this
    decision. COPS should deobligate $150,000 for the two remaining positions.
- The TPD was overpaid $5,393 for the Phase I grant and $16,639 for the AHEAD/UHP grant
    because of a LOCES billing error.
- The TPD was unable to document the redeployment of 6.3 officers (FTEs) to community
    policing under the MORE 95 grant, resulting in $95,869 of unsupported costs. The TPD does
    not plan on using the remaining grant funds ($8,174); therefore, $8,174 should be
    deobligated and the funds be put to better use.
- The TPD was unable to document the redeployment of 3.1 officers (FTEs) to community
    policing under the MORE 96 grant, resulting in $66,300 of unsupported costs. 


#####